App. 1
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FOURTH DISTRICT, 110
SOUTH TAMARIND AVENUE, WEST PALM
BEACH, FL 33401
May 29, 2020
CASE NO.: 4D19-3343
L.T. No.: CACE11025064
NICOLE BARONE vs WELLS FARGO BANK, N.A.
Appellant/Petitioner(s)

AppelIee/Respondent(s)

BY ORDER OF THE COURT:
Upon consideration of appellee’s May 27, 2020
response in opposition, it is ORDERED that
appellant’s May 12, 2020 “motion for rehearing and/or
certification or alternative request for written opinion”
is denied.
Served:
cc: Albertelli Law McguireWoods Lip Shapiro,
Fishman & Gache, LLP Brittney Lauren Difato
Emily Y. Rottman Kathleen D. Kilbride
Sara F. Holladay-Tobias Nicole Barone *W*
kr
—LONN WEISSBLUM, Clerk
Fourth District Court of Appeal

td
Served:

App. 2
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FOURTH DISTRICT, 110
SOUTH TAMARIND AVENUE, WEST PALM
BEACH, FL 33401
April 27, 2020
CASE NO.: 4D19-3343
L.T. No.: CACE11025064
NICOLE BARONE vs WELLS FARGO BANK, N.A.
Appellant/Petitioner(s)

Appellee/Respondent(s)

BY ORDER OF THE COURT:
Upon consideration of appellant’s April 22, 2020 re­
sponse, it is ORDERED that appellee’s April 7, 2020
motion to dismiss appeal with prejudice is granted,
and the above styled appeal is dismissed for lack of
prosecution.7
GROSS, GERBER and FROST, JJ., concur.
Served:
cc: Albertelli Law McguireWoods Lip Shapiro,
Fishman & Gache, LLP Brittney Lauren Difato
Emily Y. Rottman Kathleen D. Kilbride Sara F.
Holladay-Tobias Nicole Barone *W* Hon. Gina
Clerk Broward
Hawkins
kk
LONN WEISSBLUM, Clerk
””"

Pnurfh 0»«strJc* Court of Anaenl

7 We are mindful of the issuance of Administrative Order SC20-23
(the requirement in Florida Rule of Civil Procedure 1.580(a) for the
clerk to issue a writ of possession “forthwith” remains suspended)
and Executive Order 20-94 (suspending and tolling any statute
providing for a mortgage foreclosure cause of action under Florida
law for 45 days from April 2, 2020). We trust any motions directed
to those orders shall be filed in the lower tribunal upon issuance
of our mandate.

App. 3
DISTRICT COURT OF APPEALS OF THE STATE
OF FLORIDA
FOURTH DISTRICT
NICOLE BARONE and JOHN BARONE
Appellants,
v.
WELLS FARGO BANK N.A.,
Appellee.
No. 4D19-2674
[January 2, 2020]
Appeal of nonfinal order from the Circuit Court for the
Seventeenth Judicial Circuit, Broward County; Susan
Lebow, Judge; L.T. Case No. CACE11025064.
Nicole Barone and John Barone, Lighthouse Point, pro
se
Brittney L. Difato, Sara F. Holladay-Tobias and Emily
Y. Rottman of McguireWoods LLP, Jacksonville, for
appellee.
PER CURIAM.

Affirmed.
Levine, C.J., Damoorgian and Klingensmith, J.J.
concur.
Not final until disposition of timely filed motion
for rehearing.

App. 4
IN THE DISTRICT COURT OF APPEAL OF THE
STATE OF FLORIDA FOURTH DISTRICT, 110
SOUTH TAMARIND AVENUE, WEST PALM
BEACH, FL 33401
January 2, 2020
CASE NO.: 4D19-2674
L.T. No.: CACE11025064
NICOLE BARONE vs WELLS FARGO BANK, N.A.
Appellant/Petitioner(s)

Appellee/Respondent(s)

BY ORDER OF THE COURT:
ORDERED that this Court determines that this
appeal, and the underlying motion, are frivolous.
Appellant’s have filed numerous frivolous proceedings
seeking to challenge the final foreclosure judgement
that was entered in 2013. Appellant’s are cautioned
that further frivolous filing in this Court will not be
tolerated and may result in sanctions. See e.g.,
Johnson v. Bank of New York Mellon Trust Co., 136 So.
3d 507, 508 (Fla. 2014); Reithmiller v. Reithmiller, 133
So. 3d 926 (Fla. 2013); May v. Barthet, 934 So. 2d 1184,
1186 (Fla. 2006).
Served:
cc: McguireWoods Lip Sara F. Holladay-Tobias
Emily Y. Rottman Brittney Lauren Difato
Nicole Barone John M. Barone Clerk Broward
ms
------ LONN WEISSBLUM, Clerk
Fourth O’strict Court of Appeal

App. 5
IN THE CIRCUIT COURT OF THE SEVENTEENTH
JUDICIAL CIRCUIT IN AND FOR BROWARD
COUNTY, FLORIDA
CIVIL DIVISION
Wells Fargo Bank, NA

Case 2011-CA-025064
DIVISION: 11

Plaintiff,

NicoleNehrkeBarone a/k/a
Nicole N. Barone; et al.
Defendant(s).

Filed in Open Court
CLERK OF THE CIRCUIT COURT

ON.
8Y_

SEP 2 5.2019

m

ORDER RATIFYING CLERK’S SALE AND
DIRECTING ISSUANCE OF CERTIFICATE OF
TITLE AND DENYING DEFENDANT’S OBJECTION
TO SALE
THIS CAUSE, having come on to be heard upon Defen­
dant’s Objection to July 23, 2019 Unlawful Foreclosure
Sale, and the Court being fully advised in the premises,
it is;
ORDERED AND ADJUDGED:
1. Defendant, Nicole Nehrke Barone a/k/a Nicole N.
Barone’s, Objection to
Sale Is denied
(<2£2~
2. That the foreclosure sale held July 23, 2019 is
confirmed and ratified.

App. 6
3. That the Clerk shall issue the Certificate of Title in
Federal National Mortgage Association_ forthwith.
20j

HOSQJtABLE CIRCUrrcOl»SMODGE

DONE AND ORDERED in open Court at FT. LAUD­
ERDALE, Broward County,

tuv^rv-'^siy
Copies furnished to:
Shapiro, Fishman & Gache LLP, 2424 North Federal
Highway, Suite 360, Boca Raton, FL, 33431Michael T.
Gelety, Esq., FL Bar #52125
Wells Fargo Bank. N.A., Successor by merger to
Wachovia Bank, National Association, Inc., c/o
Corporation Service Company, R.A., 1201 Hayes
Street, Tallahassee, FL 32301
John M. Barone a/k/a John Barone, PO Box 5193,
Lighthouse Point, FL 33074
Nicole Nehrke Barone a/k/a Nicole N. Barone, PO Box
5193, Lighthouse Point, FL 33074
McGuireWoods LLP, 50 N. Laura Street, Suite 3300,
Jacksonville, FL 32202
10-200706 FC01 WNI

